                                                              O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                         90 - 7 T H S TREET, S UITE 3-650
                                                                          S AN F RANCISCO , CA 94103

July 30, 2012

Report Number: A-09-11-01014

Ms. Mila Kaahanui
Executive Director, Office of Community Services
Department of Labor and Industrial Relations
830 Punchbowl Street, Room 420
Honolulu, HI 96813

Dear Ms. Kaahanui:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Hawaii Claimed Unallowable Community Services Block
Grant Costs for Hawaii County Economic Opportunity Council’s Expenditures Under the
Recovery Act. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8309 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-11-01014 in all
correspondence.
                                            Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Mila Kaahanui


Direct Reply to HHS Action Official:

Ms. Janice L. Samuel
Director, Division of Financial Integrity
Office of Financial Services
Administration for Children and Families
U.S. Department of Health and Human Services
370 L’Enfant Promenade, SW
Washington, DC 20447
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



HAWAII CLAIMED UNALLOWABLE
    COMMUNITY SERVICES
   BLOCK GRANT COSTS FOR
  HAWAII COUNTY ECONOMIC
   OPPORTUNITY COUNCIL’S
  EXPENDITURES UNDER THE
       RECOVERY ACT



                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-09-11-01014
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided $1 billion to the Community Services Block Grant (CSBG) program for fiscal years
(FY) 2009 and 2010. As with annually appropriated CSBG funds, Recovery Act funds were to
be used to reduce poverty, revitalize low-income communities, and help low-income Americans.
In addition, CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010.

Within the U.S. Department of Health and Human Services, the Administration for Children
and Families (ACF), Office of Community Services, administers the CSBG program. The
CSBG program funds a State-administered network of more than 1,100 local community action
agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty.

In the State of Hawaii, the Department of Labor and Industrial Relations, Office of Community
Services (State agency), was responsible for approving CAAs’ applications for CSBG Recovery
Act funds and monitoring CAAs’ compliance with Federal requirements. Under the Recovery
Act, the State agency was awarded $5 million in CSBG funds for FYs 2009 and 2010.

Hawaii County Economic Opportunity Council (Council) is a nonprofit CAA that has served
low-income individuals in the county of Hawaii since 1965. The mission of the Council is to
alleviate, eliminate, and prevent poverty in Hawaii through various programs. For the period
November 5, 2009, through September 30, 2010, the State agency awarded the Council
$1,016,063 in CSBG Recovery Act funds (the award). The Council expended $975,368 of the
award. The remaining $40,695 was not expended and was returned to the State agency.

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. Federal law
requires that States receiving CSBG funds ensure that cost and accounting standards of the
Office of Management and Budget apply to a recipient of the funds. Nonprofit CAAs are subject
to 45 CFR part 74. These regulations state that the allowability of costs will be determined in
accordance with 2 CFR part 230, Cost Principles for Non-Profit Organizations. To be allowable
under an award, costs must be reasonable for the performance of the award and allocable to the
award under these principles. Costs are allocable if they are distributed in reasonable proportion
to the benefits received.

OBJECTIVE

Our objective was to determine whether the CSBG costs that the State agency claimed for the
Council’s program expenditures were allowable in accordance with applicable Federal
requirements.




                                                i
SUMMARY OF FINDINGS

Of the $975,368 of CSBG costs that the State agency claimed for the Council’s program
expenditures, $830,766 was allowable in accordance with applicable Federal requirements. The
remaining $144,602 consisted of $22,602 of fringe benefit costs that we determined was
unallowable and $122,000 that we set aside for ACF resolution. Specifically, we set aside:

   •   $28,796 of salaries and wages for the Council’s administrative and program employees
       because the costs were based on budget estimates,

   •   $21,789 of fringe benefits applicable to the set-aside salaries and wages, and

   •   $71,415 of shared costs because the costs were not allocated to the Council’s programs in
       reasonable proportion to the benefits received.

The State agency claimed these costs because it did not have adequate monitoring procedures to
ensure that the CSBG costs claimed for the Council’s program expenditures were allowable in
accordance with applicable Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $22,602 for unallowable fringe benefit costs,

   •   work with ACF to determine the allowability of $122,000 that we set aside and refund to
       the Federal Government any amount determined to be unallowable,

   •   work with the Council to ensure that it allocates shared costs to programs in reasonable
       proportion to the benefits received, and

   •   strengthen monitoring procedures to ensure that costs claimed are allowable in
       accordance with applicable Federal requirements.

HAWAII COUNTY ECONOMIC OPPORTUNITY COUNCIL COMMENTS

In its written comments on our draft report, the Council agreed with our finding on unallowable
fringe benefit costs. In addition, based on the available documentation, the Council concurred
with our findings related to the set-aside amount. However, the Council stated that it would
continue to search for documentation that may lower the set-aside amount and would work with
the State agency to address and resolve our findings. The Council’s comments are included in
their entirety as Appendix B.




                                                ii
STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency generally concurred with our
findings and provided information on corrective actions that it had taken or planned to take to
address our recommendations. The State agency’s comments are included in their entirety as
Appendix C.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              American Recovery and Reinvestment Act ...................................................1
              Community Services Block Grant Program ..................................................1
              Hawaii Department of Labor and Industrial Relations, .................................
                 Office of Community Services .................................................................1
              Hawaii County Economic Opportunity Council ............................................1
              Federal Requirements for Grantees ...............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          SALARIES AND WAGES........................................................................................4

          FRINGE BENEFITS .................................................................................................5

          SHARED COSTS ......................................................................................................5

          LACK OF ADEQUATE MONITORING PROCEDURES ......................................6

          RECOMMENDATIONS ...........................................................................................6

          HAWAII COUNTY ECONOMIC OPPORTUNITY COUNCIL
            COMMENTS ........................................................................................................7

          STATE AGENCY COMMENTS ..............................................................................7

APPENDIXES

          A: COSTS CLAIMED AND RESULTS OF AUDIT FOR THE PERIOD
              NOVEMBER 5, 2009, THROUGH SEPTEMBER 30, 2010

          B: HAWAII COUNTY ECONOMIC OPPORTUNITY COUNCIL COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Services Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

Community Services Block Grant Program

The CSBG program was reauthorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998 (CSBG Act), P. L. No. 105-285, to provide
funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health and Human Services (HHS), the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,100 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty. Recovery Act grant funds were intended to
cover additional costs for the same types of services.

Hawaii Department of Labor and Industrial Relations, Office of Community Services

In the State of Hawaii, the Department of Labor and Industrial Relations, Office of Community
Services (State agency), was responsible for approving CAAs’ applications for CSBG Recovery
Act funds and monitoring CAAs’ compliance with Federal requirements. Under the Recovery
Act, the State agency was awarded $5 million in CSBG funds for FYs 2009 and 2010.

Hawaii County Economic Opportunity Council

Hawaii County Economic Opportunity Council (Council) is a nonprofit CAA that has served
low-income individuals in the county of Hawaii since 1965. The mission of the Council is to
alleviate, eliminate, and prevent poverty in Hawaii. The Council offers programs in
transportation, housing, education, youth services, diversified agriculture, energy, and economic
development activities to assist individuals and families to improve the quality of their lives.




                                                1
For the period November 5, 2009, through September 30, 2010, the State agency awarded the
Council $1,016,063 in CSBG Recovery Act funds (the award). The Council expended $975,368
of the award. The remaining $40,695 was not expended and was returned to the State agency. 1

Federal Requirements for Grantees

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. Section
678D(a)(1)(B) of the CSBG Act requires that States receiving CSBG funds ensure that cost and
accounting standards of the Office of Management and Budget (OMB) apply to a recipient of the
funds. Nonprofit CAAs are subject to 45 CFR part 74. The regulations at 45 CFR § 74.27(a)
state that the allowability of costs will be determined in accordance with 2 CFR part 230
(formerly OMB Circular A-122), Cost Principles for Non-Profit Organizations. In addition,
regulations at 45 CFR part 74, Standards for Financial and Program Management Systems,
require nonprofit CAAs to maintain financial management systems.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the CSBG costs that the State agency claimed for the
Council’s program expenditures were allowable in accordance with applicable Federal
requirements.

Scope

We reviewed the State agency’s claim of $975,368 for the Council’s program expenditures
funded by the Recovery Act award for the period November 5, 2009, through
September 30, 2010. We did not review the overall internal control structure of the State agency
or the Council. We limited our review of internal controls to those that were significant to the
objective of our audit.

We conducted our audit from June to December 2011 and performed fieldwork at the State
agency’s office in Honolulu, Hawaii, and the Council’s office in Hilo, Hawaii.

Methodology

To accomplish our objective, we:

     • reviewed applicable Federal laws, regulations, and guidance;

     • reviewed contractual and supplemental agreements between the State agency and the
       Council for the period November 5, 2009, through September 30, 2010;
1
 We reviewed the award funds returned to the State agency in a separate report entitled Hawaii Claimed
Unallowable Community Services Block Grant Costs for Administrative Expenditures Under the Recovery Act
(A-09-12-01000), issued June 20, 2012.


                                                     2
     • reviewed the Council’s board of directors’ meeting minutes;

     • reviewed the Council’s accounting policies and procedures;

     • reviewed the Council’s cost allocation methodologies for shared costs;

     • interviewed State agency officials to gain an understanding of their fiscal and program
       monitoring procedures;

     • interviewed Council officials to gain an understanding of the costs charged under the
       award;

     • reviewed the State agency’s fiscal and program monitoring reports;

     • reviewed correspondence between the State agency and Council officials;

     • reviewed the Council’s audited financial statements for the periods October 1, 2007,
       through September 30, 2008; October 1, 2008, through September 30, 2009; and October
       1, 2009, through September 30, 2010;

     • reconciled the costs that the State agency claimed under the award with the Council’s
       general ledger;

     • analyzed the Council’s general ledger to identify large, unusual, and/or recurring
       transactions and examined, on a test basis, evidence supporting selected transactions for
       claimed costs to determine their allowability; 2 and

     • discussed our findings with State agency and Council officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Of the $975,368 of CSBG costs that the State agency claimed for the Council’s program
expenditures, $830,766 was allowable in accordance with applicable Federal requirements. The
remaining $144,602 consisted of $22,602 of fringe benefit costs that we determined was


2
 We determined that the number, dollar amounts, and types of transactions selected were sufficient for determining
allowability of costs based on the adequacy of supporting documentation.


                                                        3
unallowable and $122,000 that we set aside for ACF resolution. Specifically, we set aside:

      •    $28,796 of salaries and wages for the Council’s administrative and program employees
           because the costs were based on budget estimates,

      •    $21,789 of fringe benefits applicable to the set-aside salaries and wages, and

      •    $71,415 of shared costs because the costs were not allocated to the Council’s programs in
           reasonable proportion to the benefits received.

The State agency claimed these costs because it did not have adequate monitoring procedures to
ensure that the CSBG costs claimed for the Council’s program expenditures were allowable in
accordance with applicable Federal requirements.

See Appendix A for a schedule of the costs that the State agency claimed for the Council’s
expenditures and the results of our audit (i.e., allowable, unallowable, and set-aside costs).

SALARIES AND WAGES

Federal cost principles (2 CFR part 230, Appendix B, section 8.m.) state that charges to awards
for salaries and wages must be supported by personnel activity reports that reflect an after-the-
fact determination of the actual activity of each employee. Budget estimates (i.e., estimates
determined before the services are performed) do not qualify as support for charges to awards.
In addition, 2 CFR part 230, Appendix A, section A.2., states that to be allowable under an
award, costs must be reasonable for the performance of the award and adequately documented.

Of the $332,760 claimed for salaries and wages, $303,964 claimed for the Council’s direct
employees was allowable in accordance with applicable Federal requirements. 3 We set aside the
remaining $28,796 for ACF resolution because the Council charged salaries and wages for its
administrative and program employees based on budget estimates instead of charging the costs
based on the actual activity of each employee. 4

Although the Council maintained timesheets for each employee, Council officials indicated that
the timesheet clerk adjusted the administrative and program employees’ timesheets to match the
Council’s budget. In addition, the employees’ timesheets did not clearly identify which activities
were related to CSBG program activities funded under the Recovery Act. Therefore, we could
not determine the correct amount of time that should have been charged to the award.




3
  The $303,964 of allowable salaries and wages for the Council’s direct employees was supported with timesheets
that reflected an after-the-fact determination of the actual time of each employee. Direct employees charged
100 percent of their time to the CSBG Recovery Act grant.
4
    Administrative and program employees’ salaries and wages were paid indirectly with CSBG and other grant funds.


                                                         4
FRINGE BENEFITS

Federal cost principles (2 CFR part 230, Appendix A, section A.2.) state that to be allowable
under an award, costs must be reasonable for the performance of the award and adequately
documented. In addition, 2 CFR part 230, Appendix B, section 8.g., states that fringe benefits in
the form of regular compensation paid to employees for authorized leave are allowable, provided
such costs are absorbed by all organization activities in proportion to the relative amount of time
or effort actually devoted to each. Fringe benefits in the form of employer contributions or
expenses, whether treated as indirect or direct costs, must be distributed to particular awards and
other activities in a manner consistent with the pattern of benefits accruing to individuals or
groups of employees whose salaries and wages are chargeable to such awards and other
activities.

Of the $123,770 claimed for fringe benefits, $79,379 was allowable in accordance with
applicable Federal requirements. 5 The remaining $44,391 consisted of $22,602 that we
determined was unallowable and $21,789 that we set aside for ACF resolution:

    •    The $22,602 was unallowable because the Council did not have supporting
         documentation to justify fringe benefit charges made on September 30, 2010, the end of
         the award period. Of this amount, $14,329 related to the Council’s Dropout Prevention
         program and $8,273 related to the Council’s Language Arts Multicultural program.
         Council officials stated that they did not know how these fringe benefits were calculated
         and whether they should have been charged to the award. Council officials believed that
         the previous fiscal officer (who was no longer employed at the Council) charged fringe
         benefits based on the approved budget to claim the remaining funds available under the
         award.

    •    The $21,789 of fringe benefits that we set aside was applicable to the set-aside salaries
         and wages discussed in the previous section.

SHARED COSTS

Federal cost principles (2 CFR part 230, Appendix A, section A.4.) state that a cost is allocable
to an award if it benefits both the award and other work and can be distributed in reasonable
proportion to the benefits received. Any cost allocable to a particular award or other cost
objective under these principles may not be shifted to other Federal awards to overcome funding
deficiencies or to avoid restrictions imposed by law or by the terms of the award.
Federal regulations (45 CFR § 74.21(b)) state that grantees must maintain financial management
systems that contain written procedures for determining the reasonableness, allocability, and
allowability of costs. Grantees must also maintain accounting records that are supported by
source documentation and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data.

5
 The $79,379 of allowable fringe benefits was related to the allowable salaries and wages for the Council’s direct
employees (discussed in the previous section).



                                                         5
Of the $77,998 claimed for shared costs, 6 $6,583 was allowable in accordance with applicable
Federal requirements. 7 We set aside the remaining $71,415 for ACF resolution because the
Council did not allocate the costs to its programs in reasonable proportion to the benefits
received. Specifically, the Council did not have adequate documentation to support how it
allocated $71,415 of shared costs to the award.

The Council’s senior accountant believed that the previous fiscal officer allocated shared costs to
the award based on the approved budget to claim the remaining funds available under the award.
Because of the lack of adequate supporting documentation, we could not determine the correct
amount of costs that should have been charged to the award.

LACK OF ADEQUATE MONITORING PROCEDURES

The State agency did not have adequate monitoring procedures to ensure that the CSBG costs
claimed for the Council’s program expenditures for salaries and wages, fringe benefits, and
shared costs were allowable in accordance with applicable Federal requirements. In a fiscal
monitoring report covering the Council’s use of CSBG Recovery Act funds, the State agency
reported weaknesses related to the Council’s personnel and shared costs; however, the State
agency concluded that there was no evidence of any misuse or excessive use of CSBG Recovery
Act funds and that all reported expenditures were supported with proper documentation.

We found, on the contrary, that the Council charged salaries and wages based on budget
estimates. In addition, the Council claimed fringe benefits based on the availability of funds
without supporting documentation. Finally, the Council’s shared costs were not allocated among
its programs in reasonable proportion to the benefits received.

RECOMMENDATIONS

We recommend that the State agency:

    •    refund to the Federal Government $22,602 for unallowable fringe benefit costs,

    •    work with ACF to determine the allowability of $122,000 that we set aside and refund to
         the Federal Government any amount determined to be unallowable,

    •    work with the Council to ensure that it allocates shared costs to programs in reasonable
         proportion to the benefits received, and

    •    strengthen monitoring procedures to ensure that costs claimed are allowable in
         accordance with applicable Federal requirements.



6
 Shared costs included costs for vehicle gas and oil, telecommunications, utilities, insurance, audit service, data
processing, postage, freight and delivery, publication, printing, and copying expenses.
7
 Allowable shared costs of $6,583 included other vehicle gas and oil, data processing, postage, freight, and delivery
expenses that had adequate supporting documentation and were allocated in an equitable manner.


                                                           6
HAWAII COUNTY ECONOMIC OPPORTUNITY COUNCIL COMMENTS

In its written comments on our draft report, the Council agreed with our finding on unallowable
fringe benefit costs. In addition, based on the available documentation, the Council concurred
with our findings related to the set-aside amount. However, the Council stated that it would
continue to search for documentation that may lower the set-aside amount and would work with
the State agency to address and resolve our findings. The Council’s comments are included in
their entirety as Appendix B.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency generally concurred with our
findings and provided information on corrective actions that it had taken or planned to take to
address our recommendations. The State agency’s comments are included in their entirety as
Appendix C.




                                                7
APPENDIXES 

    APPENDIX A: COSTS CLAIMED AND RESULTS OF AUDIT FOR THE PERIOD 

              NOVEMBER 5, 2009, THROUGH SEPTEMBER 30, 2010 





                 Element of Cost                  Claimed         Allowable        Unallowable         Set Aside


    Salaries and Wages                             $332,760          $303,964                   $0         $28,796


    Equipment                                        177,184          177,184                     0                   0


    Fringe Benefits                                  123,770           79,379              22,602           21,789


    Consultant and Professional Costs                103,272          103,272                     0                   0


    Other Costs 1                                     90,752           90,752                     0                   0


    Shared Costs 2                                    77,998             6,583                    0         71,415


    Supplies                                          37,365           37,365                     0                   0


    Vehicle Costs                                     21,758           21,758                     0                   0


    Travel and Mileage                                  7,804            7,804                    0                   0


    Facilities                                          2,292            2,292                    0                   0


    Physical ExamlDrug Testing                            413              413                    0                   0


      Total                                        $975,368         $830,766             $22,602         $122,000



1Other costs included costs for office and yard maintenance, workshop training and Results Oriented Management
and Accountability, program activities, summer school tuition, community garden preparation, and benefits and
emollrnent coordination funds.

2Shared costs included costs for vehicle gas and oil, telecommunications, utilities, insurance, audit service, data
processing, postage, freight and delivery, publication, printing, and copying expenses.
APPENDIX B: HAWAII COUNTY ECONOMIC OPPORTUNITY COUNCIL 

                       COMMENTS 





                                                      H. C. E. O. C.
                                                                                                                    ~A.''''.'H''
                      Hawa ii Cou nty Economic Opportuni ty Counci l                                                -~---
                                       47   I~ a in bow   I)ri ve Hi lo, Hawaii 96720
                                                          (808)96 1-268 \
   May 17,2012

   Report Number: A..Q9-11-OJOI 4

   Lori A Ahlstrand
   Regionallnsp..--coor General for Audit Services,
   Depanment of Health and Human Services
   attic<: ofinspcc\or General, Office of Audit Services, Region IX
   90 -.,. Sireet, Sui]e J -650
   ::ian Franc isco. CA 94103

   Dear Inspector AhISirand:

   We 011 the Ha ...." ii Couruy Econom ic Opportunity Council (I!CEOC) rowe read your April 20,          20121~Uer   citing
   unallowable and ~t 9~;de fWld~ fM Our FYE 2010 ARRA CSf3(; Granl

   We agree with tho: $22.602 unallowable citation regarding fringe l:x:nefit charges.

   We al!iO concur thaI 00.;.,<.1 upon tho: source documenL~ thai   We   arc currently able to supply_ the S 122,000 SCI aside
   findings are valid.

   However, for those staff like mysclfwho were neal-i1r involved in achieving Ihe rigorous milestones and
   benchmarks of the ARM CSBG program, we still feci that there may be documents )·et un~'Qvcrcd which may
   reduce the: set aside amount currently asses5cd to us

   In the upcom ing weeks, we shall continuc our search for invoices, rece ipts, data entrics, and rc~ts tmt could lower
   the $122,(0) set aside funds.

   We sh~n woO: "'ith our State   Office of Community       ~rvice5   to address and re.~lve the concerns expressed in your
   report.

   We would like to thank the OIG team whc "isitcd US for their e.~ccptionR ny pmfe""ional. respectful and helpful
   conduct.

   Sincerely,

   ,..rl.~
   Lester Seto
   Interim Executive Director
   HCEOC
                                                                                                             Page 1 0[6


                      APPENDIX C: STATE AGENCY COMMENTS 



NEIL ABERCROMBIE                                                                                  DWIGHT TAKAMINE
   GOVf:RNOR                                                                                          DIRECTOR

                                                                                                    AUDREY HIDANO
                                                                                                   DEPUTY DIRECTOR

                                                                                                    MILA KA'AHANUI
                                                                                                  EXECUTIVE DIRECTOR
                                           STATE OF HAWAII
                                   OFFICE OF COMMUNITY SERVICES
                               DEPARTMENT OF LABOR AND INDUSTR IAL RE LATIONS
                                     830 PUNCHBOWL STREET, ROOM 420
                                          HONOLULU, HAWAII 96813


                                                 July 12, 2012



       Ms. Lori A. Ahlstrand
       Regional Inspector General for Audit Services
       Office of Audit Services, Region IX
       90_7'h Street, Suite 3650
       San Francisco, California 94103

                   Re: 	 Audit Findings for Hawaii County Economic Opportunity Council
                         from Preliminary Draft Report # A-09-11-01014, dated Juue 15, 2012

       Dear Ms. Ahlstrand:

                This letter constitutes the response of the Hawaii State Office of Community Services
       (HOCS) to the Draft Report #A-09-11-01014 of your oHice, regarding the Inspector General 's
       monitoring of the Hawaii County Economic Opportunity Council ("HCEOC", or the "Council").
       Generally, HOCS concurs with the findings, and wi ll offer some claritication and comments on
       the report sections referenced below. Please find the re levant text of the draft report emboldened
       in this document with the State's response in italicized font.

       From Drafl Report #A-09-JJ -OJ014

       [IJ "FINDINGS AND RECOMMENDATIONS

       "Of the $975,368 of CSDG costs that the State agency claimed for the Council's program
       expenditures, $830,766 was allowable in accordance with applicable Federal requirements.
       The remaining $144,602 consisted of $22,602 of fringe benefit costs that we determined was
       unallowable and $122,000 that we set aside for ACF resolution. Specifically, we set aside:
            • 	 $28,796 of salaries and wages for the Council's administrative and program
                employees because the costs were based on budget estimates,
            • 	 $21,789 of fringe benefits applicable to the set-aside salaries and wages, and
                $71,415 of shared costs because the costs were not allocated to the Council's
                programs in reasonable proportion to the benefits received.

       "The State agency claimed these costs because it did not have adequate monitoring
       procedures to ensure that the CSBG costs claimed for the Council's program expenditures
       were allowable in accordance with applicable Federal requirements."
                                                                                                     Page 2 of6




Ms. Lori A. Ahlstrand
July 12,2012
Page 2


State Response: Generally, the State concurs with Ihisfinding. During the ARRA period, the
Slale ofHawaii experienced economic downturn, and the Governor at the lime attempted 10
restrict administrative costs by instituting a hiring and travel freeze. Due 10 Hawaii 's island
geography, monitoring could not be petformed without extensive air travel and overnight stays.
 The Governor at the time did approve ofARRAfunded additional staffand travel, however no
administrative funds were provided by the A RRA grant for salaries or travel costs. Thus, although
formula eSBG funds were available for administration, HOeS implemented the $5 million eSBG
ARRA grant and the $3. 7 million eSBGformula grant with one half-time staff

"Corrective Actio,,: Since Ihe A RRA period, HOeS has been allowed a limited restoration of
staff In 2010 a new Exeeulive Director was appointed and a new CSBG Administrator was
assigned shortly thereafter in June 2011. The new eSBG Administrator has developed and
implemented new monitoring fools , and the most recent Stale Plan, due in September, will be
updated to include HOe S ' monitoring dates. With the entrance ofthe new Governor State,
Departmental, Division, and General fiscal policies and procedures are in the process ofbeing
updated. In addition, the new Executive Director has refocused Hoes with an increased
emphasis on transparency and compliance through more structured monitoring.

(2) "SALARIES AND WAGES

"Federal cost principles (2 CFR part 230, Appendix B, section 8.01.) state that charges to
awards for salaries and wages must be supported by personnel activity reports that reflect an
after-the- fact determination of the actual activity of each employee, Budget estimates (i.e.,
estimates determined before the services are performed) do not qualify as support for
charges to awards. In addition, 2 CFR part 230, Appendix A, section A.2., states that that to
be allowable under an award, costs must be reasonable for the performance of the award
and adequately documented. Ofthe $332,760 claimed for salaries and wages, $303,964
claimed for the Council's direct employees was allowable in accordance with applicable
Federal requirements. We set aside the remaining $28,796 for AC F reselution because the
Council charged salaries and wages for its administrative and program employees based on
budget estimates instead of charging the costs based on the actual activity of each employee.

"Althougb the Council maintained timesheets for each employee, Council officials indicated
that the timesheet clerk adjusted the administrative and program employees' timesheets to
match the Council's budget. In addition, the employees' timesheets did not clearly identify
which activities were related to CSBG program activities funded under the Recovery Act.
Therefore, we could not determine the correct amount of time that should have been charged
to the award.
                                                                                                 Page 3 of 6




Ms. Lori A. Ahlstrand
July 12, 2012
Page 3


"FRINGE BENEFITS

"Federal cost principles (2 CFR part 230, Appendix A, section A.2.) state that that to be
allowable under an award, costs must be reasonable for the performance of the award and
adequately documented. In addition, 2 CFR part 230, Appendix B, section 8.g., states that
fringe benefits in the form of regular compensation paid to employees for authorized leave
are allowable, provided such costs are absorbed by all organization activities in proportion to
the relative amount of time or effort actually devoted to each. Fringe benefits in the form of
employer contributions or expenses, whether treated as indirect or direct costs, must be
distributed to particular awards and other activities in a manner consistent with the pattern
of benefits accruing to individuals or groups of employees whose salaries and wages are
chargeable to such awards and other activities. Of the $123,770 claimed for fringe benefits,
$79,379 was allowable in accordance with applicable Federal requirements. The remaining
$44,391 consistcd of $22,602 that we determined was unallowable and $21,789 that we set
aside for ACF resolution:
     • 	 The $22,602 WIIS unallowable because the Council did not have supporting
         documentation to justify fringe benefit charges made on September 30, 2010, the
         end of the award period. Of this amount, $14,329 related to the Council's Dropout
         Prevention program and $8,273 related to the Council's Language Arts
         Multicultural program. Council officials stated that they did not kuow how these
         fringe benefits were calculated and whether tbey should have been charged to the
         award. Council officials believed that the previous fiscal officer (who was no
         longer employed at the Council) charged fringe benefits based on the approved
         budget to claim the remaining funds available under the award.
     • 	 The $21,789 offringe benefits that we set aside was applicable to the set-aside
        salaries and wages discussed in the previous section.

"SHARED COSTS

"Federal cost principles (2 CFR part 230, Appendix A, section A.4.) state that a cost is
allocable to an award if it benefits both the award and other work and can be distributed in
reasonable proportion to the benefits received. Any cost allocable to a particular award or
other cost objective under these principles may not be shifted to other Federal awards to
overcome funding deficiencies or to avoid restrictions imposed by law or by the terms of
the award.

"Federal regulations (45 CFR § 74.21(b» state tbat grantees must maintain financial
management systems that contain written procedures for determining the reasonableness,
allocability, and allowability of costs. Grantees must also maintain accounting records that
are supported by source documentation and maintain financial systems that provide for
accurate and complete reporting of grant-related financial data.
                                                                                                    Page 4 of 6




Ms. Lori A. Ahlstrand
Jul y 12,2012
Page 4


"Of the $77,998 claimed for shared costs, $6,583 was allowable in accordance with
applicable Federal requirements. We set aside the remaining $71,415 for ACF resolution
because the Council did not allocate the costs to its programs in reasonable proportion to
the benefits received. Specifically, the Council did not have adequate documentation to
support how it allocated $71,415 of shared costs to the award.

"The Council's senior accountant believed that the previous fiscal officer allocated shared
costs to the award based on the approved budget to claim the remaining funds available
under the award. Because of the lack of adequate supporting documentation, we could not
dctermine the correct amount of costs that should have been charged to the award."

State Response: Although these paragraphs involve three cost categories, Salaries and Wages,
Fringe Benefits. and Shared Costs, the common finding in all three categories is the inability of
HCEOC to correctly allocate funds in proper or reasonable amounts. In general, the State
agrees with this finding. We believe the issues above are primarily shortcomings ofthe
accounling system used by HCEOC at the time. Because HCEOC was not accountingfor funds
on a grant-by-grant basis and relied on paper ledger sheets where duplicate entries in multiple
programs could be entered, it was impossible for HOCS to ascertain any duplication ofcosts or
to compare total cost allocation across programs. In such a ledger, unless the coding is
consistent from program to program and the code identifies the funding SOlirce, it would be
difficult/or an auditor 10 ascerlain whether or not an expense is being charged in two different
programs. As a side note, the fiexibility ofCSBG formula funds to be used without guidelines or
limils on administrative expenditures creales the impression among many Community Action
Agencies that it is allowable to attempt to completely expend an award without proper
allocation. Finally, there is no clear authority from the Federal Governmentfor State agencies
to examine the entire CAA 's budget within the scope ofCSBG audit, nor a clear definition ofthe
scope ojCSBG audit. This creates a situation where agencies are resistant to opening each
program ledger. Without a proper comparison between the affected program and others, it is
impossible to determine relative proportions and determ ine reasonableness.

Corrective Action: Through continued monitoring and through the recommendations ofan
outside contractor, Meliora Partners, HOCS has assisted HCEOC in reconstituting the Board of
Directors, reorganizing or eliminating non-pelforming programs, liquidating unnecessary or
irrelevant assets, partially fimding and approving use of HCEOCjimds to purchase MIP-SAGE
accounting software, as well as provided trainingjimdsfor the agency. Through continued
monitoring and dialogue since the ARRA period, HCEOC has, this past year, achieved an audit
with no material misstatements; however the agency continues to have findings relating to
timeliness ofreporting. We believe the adoption ofthis new sofiware will modernize and
streamline the reporting process and provide more opportunities for checks and balances.
                                                                                                      Page 5 of6




Ms. Lori A. Ahlstrand
July 12, 2012
Page 5


(3( "LACK OF ADEQUATE MONITORING PROCEDURES

"The State agency did not have adequate monitoring procedures to ensure that the CSBG
costs claimed for the Council's program expenditures for salaries and wages, fringe benefits,
and shared costs were allowable in accordance with applicable Federal requirements. In a
fiscal monitoring report covering the Council's lise of CSBG Recovery Act funds, the State
agency reported weaknesses related to the Council's personnel and shared costs; however,
the State agency concluded that there was no evidence of any misuse or excessive use uf
CSBG Recovery Act funds and that all reported expenditures were supported with proper
documentation. We found, on the contrary, that the Council charged salaries and wages
based on budget estimates. In addition, the Council claimed fringe henefits based on the
availability of funds without supporting documentation. Finally, the Council's shared costs
were not allocated among its programs in reasonable proportion to the benefits received."

State Response: 71,. State concurs with thisfinding, with a/ew comments. The CSBG/unding
source is intended to be aflexible, "infrastructure " gran/fO allow Community Action Agencies
to absorb shortcomings in other grants in order to support a wider array ofprogramming.
Although the model allowsjlexibilityand is successful in responsible agencies, it can be very
detrimental when vielVed as agency "duci tape " to repair mismanaged programs. The CSBG
Act does not contain sufficient clarity on the State 's authority to expand the scope 0/ monitoring
to include entire agency budgets, nor does it clearly outline terms such as "reasonable
proportion " o/allocable costs. In this case, an auditor, the State, and the CAA may have three
different interpretations of "reasonableness. " Currently, the existing norm for appropriate
administrative proportion is 15%, however this is a "best practice" and unenforceable. In lean
years, CM administrative proportions have exceeded thisflgure and expanded to as much as
50% in some agencies. If a number or percentage were clearly defined at the Federal level, the
State would be able to assist the CAA 's in achieving this goal.

Corrective Actioll: The State plans to clarify authority in the State contracting negotiation
process by inserting provisions in our con/raets with the agencies that clarify HOCS ' authority
to review and monitor the CAAs ' agency-wide budgets. HOlVever, this is likely to be viewed by
Community Action Agencies as an attempt by the State to overstep ils authority. Clarity and
g uidance on acceptable administrative levels and reasonable proportions/rom the Federal
Government would be preferable. Because nwnitoring is based on sampling, it is already a
provision in all contracts that costs found unallowable after the fact will be reimbursed by the
contractor.
                                                                                                  Page 6 of 6




Ms. Lori A. Ahlstrand
July 12,20 12
Page 6


(4] "RECOMMENDATIONS
"We recommend that the State agency:
      • 	 refund to the Federal Government $22,602 for unallowable fringe benefit costs,
      • 	 work with ACF to determine the allow ability of $122,000 that we set aside and
          refund to the Federal Government any amount determined to be unallowable,
      • 	 work with the Council to ensure that it allocates shared costs to programs in
          reasonable proportion to the benefits received, and
      • 	 strengthen monitoring procedures to ensure that costs claimed arc allowable in
          accordance "'jth applicable Federal requirements."

Corrective Actiolls baselloll Recommendatiolls:
     • 	 Once the OIG draft is finalized and approved by AGF-OCS, and a billfor collection is
         submitted to the State, OCSwill submil to HCEOC an invoicefor $22,602for
         unallowable costs. HCEOC has agreed the agency was al faull and will reimburse Ihe
         Slate.
     • 	 HOGS will need 10 have fitrlher contacl wilh ACF, once Ihe OIG reporl is finalized, in
         order 10 delermine whal docU/nenls will be sufficienllo establish allowability or
         reasonableness from the Federal perspective. HOCSfiles monthly reports on
         outstanding CAA and CSBG issues 10 Ihe Federal Program Administrator for Region
         IX, Dr. James Gray, and will conlinue 10 report on Ihe HCEOG situation. HCEOC has,
         along wilh one OIher agency, been identified as borderline high-risk BOlh ofthese
         agencies will receive increased monitoring over the next Slate Plan cycle. Unlike
         previous Slate Plans ji'mn Hawaii, the State's monitoring plan will be more clearly
         defined.
     • 	 HOGS has already provided fimding to train accounting staf[and Board members on
         reasonableness, al/olVability, and proper al/ocalion, as weI/ as partialfundingfor MIP
         Sage software.
     • 	 As stated above, HOCS has implemented new monitoring /ools, assigned a more
         experienced and capable Program Administrator, and sent the new PA to various
         trainings to assure understanding afprogram requirements.

       We believe this document adequately addresses the OIG's findings and are willing to
provide any follow up information your office may require. Please contact myself or the CSBG
Administrator, En Young, at (808) 586-8675 if you have any additional concerns.

                                            Sincerely,


                                           !Lv;/Ajc.",~~.j'-4{tVA
                                            MILA' KAAHANUI, MSW
                                            Executive Director
